                                     TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



April 4, 2012

Diane T. Wear, WT 4B-K

REQUEST FOR FINAL ACTION – AUDIT 2011-14340-01 – PROCESS IMPROVEMENTS
FOR TVA’S COMPLIANCE WITH THE IMPROPER PAYMENTS INFORMATION ACT



The Office of the Inspector General performed an audit of the Tennessee Valley
Authority’s (TVA) compliance with the Improper Payment Information Act (IPIA) for fiscal
year (FY) 2011. Audit 2011-14340, issued on March 12, 2011, found TVA was in
compliance with IPIA requirements that were applicable to TVA. However, during our
audit we identified some areas where TVA can improve its process for IPIA reporting to
better ensure that it meets IPIA requirements in the future. TVA management’s written
comments, which addressed their suggestions, management decision, and actions
planned or taken, have been included in this report. See Appendix B for TVA’s complete
response.

BACKGROUND

As required by IPIA (as amended by the Improper Payments Elimination and Recovery Act
[IPERA] of 2010), we performed a review of TVA’s Improper Payment Information Report –
FY 2011. The Office of Management and Budget (OMB) guidance requires each agency
Inspector General to review agency improper payment reporting in the agency’s annual
Performance and Accountability Report (PAR) or Annual Financial Report (AFR) and
accompanying materials to determine if the agency is in compliance with IPIA. In particular,
to determine compliance with IPIA, the agency Inspector General should review the
agency’s PAR or AFR (and any accompanying information) for the most recent FY.
Compliance with IPIA means the agency has:

   Published a PAR or AFR for the most recent FY and posted the report and any
    accompanying materials required by the OMB on the agency Web site.
   Conducted a program specific risk assessment for each program or activity that
    conforms to Section 3321 of Title 31 U.S.C. (if required).
   Published improper payment estimates for all programs and activities identified as
    susceptible to significant improper payments under its risk assessment (if required).
   Published programmatic corrective action plans in the PAR or AFR (if required).
   Published, and met, annual reduction targets for each program assessed to be at risk
    and measured for improper payments.

       WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                     TVA RESTRICTED INFORMATION
Diane T. Wear
Page 2
April 4, 2012



   Reported a gross improper payment rate of less than 10 percent for each program and
    activity in which an improper payment estimate was obtained and published in the PAR
    or AFR.
   Reported information on its efforts to recapture improper payments.

For information pertaining to our objective, scope, and methodology, see Appendix A.

FINDINGS AND RECOMMENDATIONS

This was the first year OMB required agency Inspector Generals to provide an opinion on
agency compliance with IPIA. During our review, we noted TVA did not have a formal
process for obtaining, documenting, and reporting improper payments for the IPIA report.
As a result, TVA had to rerun some reports and search for documentation for some of the
information we requested for our review. TVA can improve its process for IPIA reporting
and better ensure that it meets IPIA requirements with a more formal process. Specifically,
we recommend TVA:

1. Document all processes related to complying with IPIA. These processes may include,
   but are not limited to, the identification, calculation, and recapture of improper
   payments.

    TVA Management’s Comments – In response to our recommendation, TVA stated
    Accounts Payable (AP) is developing a comprehensive document that will include
    background of legislation, requirements, and steps for gathering data related to
    Improper Payment reporting. The process will be documented by September 30, 2012,
    before the FY 2012 improper payments report is due. See Appendix B for TVA’s
    complete response.

    Auditor’s Response – The Office of the Inspector General (OIG) concurs with the
    planned actions.

2. Maintain documentation of all reports used to identify potential improper payments as
   well as documentation related to actual improper payments.

    TVA Management’s Comments – In response to our recommendation, TVA stated
    AP will maintain data monthly in folders for review. Actual improper payment amounts
    and descriptions are logged on an excel spreadsheet and will be maintained on the AP
    shared server folder. See Appendix B for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

3. Consider posting TVA’s Improper Payments Information Report – FY 2011 on the
   agency Web site to increase transparency and better align its policy with that of other
   agencies.

    TVA Management’s Comments – In response to our recommendation, TVA stated it
    will consider posting the improper payment information report if legislation thresholds
    are exceeded. TVA will annually evaluate whether its improper payments fall below
                             TVA RESTRICTED INFORMATION
Diane T. Wear
Page 3
April 4, 2012



   thresholds or if required to issue a PAR or AFR instead of an Annual Management
   Report, as noted in the guidance. See Appendix B for TVA’s complete response.

   Auditor’s Response – Since TVA is not required to post TVA’s Improper Payments
   Information Report – FY 2011 on the agency Web site, TVA’s response was complete.
   However, the OIG notes TVA’s stance on this matter is in conflict with recent
   statements made by TVA executives pertaining to increased agency transparency.

4. Document a formal review process to help ensure TVA accurately reports improper
   payments.

   TVA Management’s Comments – In response to our recommendation, TVA noted
   the document developed in response to Recommendation No. 1 will include the review
   steps taken to ensure data is accurately reported. See Appendix B for TVA’s complete
   response.

   Auditor’s Response – The OIG concurs with the planned actions.

                          -       -      -      -      -       -

Please notify us within one year from the date of this memorandum when final action is
complete. Information contained in this report may be subject to public disclosure. Please
advise us of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Ricky L. Taylor, Project Manager, at
(865) 633-7370 or Rick C. Underwood, Director, Corporate Governance and Finance
Audits, at (423) 785-4824. We appreciate the courtesy and cooperation received from
your staff during this audit.



David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

RLT:HAC
cc: Micheal B. Fussell, WT 9B-K
    Peyton T. Hairston, Jr., WT 7B-K
    Joseph J. Hoagland, WT 7B-K
    Tom Kilgore, WT 7B-K
    Richard W. Moore, ET 4C-K
    Emily J. Reynolds, OCP 1L-NST
    John M. Thomas III, MR 6D-C
    Denise M. Thompson, WT 4A-K
    Robert B. Wells, WT 9B-K
    OIG File No. 2011-14340-01


                              TVA RESTRICTED INFORMATION
                                                                                            APPENDIX A
                                                                                             Page 1 of 1

OBJECTIVE, SCOPE, AND METHODOLOGY

As part of our annual audit plan, we assessed the Tennessee Valley Authority’s (TVA)
Improper Payment Information Report – FY 2011 to determine whether TVA was in
compliance with the Improper Payments Information Act of 2002. Our audit scope was
TVA’s Improper Payment Information Report – FY 2011 and supporting documentation.

In general, to achieve our objective, we:

    Interviewed Financial Services personnel to gain an understanding of the process and
     methodology used to calculate and report improper payments for FY (fiscal year) 2011.
    Obtained and reviewed TVA’s Improper Payment Information Report – FY 2011.
    Obtained and reviewed legislative guidance related to improper payments, such as
     (1) the Improper Payments Information Act (IPIA) of 2002, (2) the Improper Payments
     Elimination and Recovery Act (IPERA) of 2010, and (3) Appendix C of the Office of
     Management and Budget (OMB) Circular A-123.
    Requested and obtained opinions pertaining to TVA’s legal obligations from both TVA’s
     Office of the General Counsel and the Office of the Inspector General’s Legal Counsel
     concerning TVA’s compliance requirements with regard to IPIA/IPERA and Appendix C
     of the OMB Circular A-123. In addition, we obtained guidance from an OMB
     representative concerning TVA’s compliance requirements with regard to IPIA/IPERA
     and Appendix C of the OMB Circular A-123.
    Compared TVA’s IPIA report to legislative guidance to determine compliance.
    Reviewed a judgmental sample of improper payments consisting of approximately
     73 percent of the total dollar amount of reported improper payments.
    Reviewed a judgmental sample of recaptured improper payments consisting of
     approximately 59 percent of the total dollar amount of reported recaptured amounts.
    Selected a random sample of 10 items from TVA’s sample of 106 payments that TVA
     sampled as part of the IPIA requirements. We reviewed the support for the 10 items to
     determine if TVA’s assumptions regarding whether or not the payment was paid
     correctly were reasonable.1

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




1
    We judgmentally selected each of the samples to attain additional comfort that the improper payment
    amounts reported by TVA were reasonable. Our samples were not intended to allow for any type of
    projections to be made.
                                   TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 2




TVA RESTRICTED INFORMATION
